OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/VIETNAM’S
COMPETITIVENESS
INITIATIVE PHASE II
AUDIT REPORT NO. 5-440-11-007-P
MAY 27, 2011




MANILA, PHILIPPINES
     Office of Inspector General


     May 27, 2011

     MEMORANDUM

     TO:                  USAID/Vietnam, Mission Director, Francis A. Donovan

     FROM:                Acting Regional Inspector General/Manila, William S. Murphy /s/

     SUBJECT:             Audit of USAID/Vietnam’s Competitiveness Initiative Phase II
                          (Audit Report No. 5-440-11-007-P)

     This memorandum transmits our final report on the subject audit. In finalizing the report,
     we considered your comments on the draft audit report and included the comments in
     their entirety in Appendix II.

     The audit report contains four recommendations to assist the mission in improving its
     oversight and management of the Vietnam Competitiveness Initiative Phase II. On the
     basis of information provided by the mission in response to the draft report, we
     determined that management decisions have been reached on Recommendations 1, 2,
     and 3, and final action has been taken on Recommendation 4. Please provide the Audit
     Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
     with evidence of final action to close the open recommendations.

     I want to thank you and your staff for the cooperation and courtesies extended to us
     during this audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd. 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................………………1

Audit Findings ................................................................................................................. 5

     Program Lacked Approval as Required by Government of Vietnam
     Regulations ................................................................................................................. 5

     Monitoring and Evaluation Plan Was Not in Compliance With the Task Order........... 6

     Program Performance Reporting Needed Improvement............................................. 8

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 12

Appendix III – Provincial Competitiveness Ratings, 2009......................................... 15




  Abbreviations

  The following abbreviations appear in this report:

  COTR                 contracting officer’s technical representative
  M&E                  monitoring and evaluation
  MPI                  Ministry of Planning and Investment
  PCI                  Provincial Competitiveness Index
  PPP                  public-private partnership
  VCCI                 Vietnam Chamber of Commerce and Industry
  VNCI-I               Vietnam Competitiveness Initiative Phase I
  VNCI-II              Vietnam Competitiveness Initiative Phase II
SUMMARY OF RESULTS
Vietnam is entering a crucial stage in its transition from a centrally planned socialist
economy to an internationally competitive market economy. Accordingly, Vietnam is
focusing on good economic governance and the creation of civil society institutions and
public-private partnerships to improve the business environment and to upgrade the
competitiveness of domestic and foreign enterprises in Vietnam. To complement these
efforts, USAID is implementing activities at both the national and provincial levels to
(1) strengthen the regulatory system to reduce the costs and risks of doing business in
Vietnam for citizens and businesses, (2) support the development and financing of
infrastructure to improve public services, and (3) increase the government and private
sector’s understanding of key issues related to competitiveness.

USAID has provided technical assistance to enhance Vietnam’s competitiveness since
2001. The first effort was a pilot project, followed by the larger Vietnam Competiveness
Initiative Phase I (VNCI-I) from 2003 to 2008. VNCI-I worked in the areas of policy
reform and economic governance.              Although legal reforms have been major
achievements under the program, the implementation of regulations and administrative
procedures to enhance competitiveness has been poor at both the national level and in
the provinces, where enterprises interact daily with government officials. To address this
problem, USAID/Vietnam awarded a 4½-year, $12.4 million task order contract to the
DAI/Nathan Group, covering the period from October 1, 2008, through February 28,
2013, to implement VNCI-II. As of September 30, 2010, $7.8 million had been obligated
and $4.9 million had been spent for VNCI-II activities.

The objective of the audit was to determine whether VNCI-II is making progress in
achieving its main goals.

The audit found that the program is making progress in achieving its main goals by
assisting the Government of Vietnam in strengthening the regulatory system to reduce
the costs and risks of doing business in Vietnam, supporting the development and
financing of infrastructure to improve public services, and increasing the government and
private sector’s understanding of key competitiveness issues. To achieve its goals, the
program is focusing on four activities: (1) simplifying administrative procedures, (2)
conducting regulatory impact assessments, (3) building capacity for developing and
financing infrastructure, and (4) developing the Provincial Competitiveness Index. These
four activities are discussed in detail below.

1. Simplifying Administrative Procedures (Project 30).           Project 30 1 aims to
   substantially reduce the costs and risks of administrative procedures affecting
   businesses and citizens by simplifying or abolishing such procedures when possible.
   The program succeeded in conducting an inventory of 52,639 administrative
   procedures under Project 30. This led to the approval by the Vietnamese
   Government of the first package of 258 simplified priority administrative procedures
   in June 2010 to be implemented by changes to existing legislation. These legislative


1
  Project 30 is a name derived from the Prime Minister’s Decision No. 30, which approved the
simplification of administrative procedures in Vietnam.


                                                                                          1
   changes are designed to save businesses an estimated $294 million per year in
   compliance costs. Most notable is the establishment of a Web-based national
   database of administrative procedures, which has been directly benefiting
   businesses and citizens of Vietnam. Prior to Project 30, administrative procedures in
   Vietnam had never been inventoried, and their exact number was unknown. This is
   the country’s first centralized database for all administrative procedures at all levels
   of government.

   This database will provide businesses and citizens with full access to all
   administrative procedures online, making the regulatory environment more
   transparent and leading to more favorable conditions for business. A high-ranking
   government official commented to the audit team that this national database is “[a]
   gift from the American people.”

   Another achievement of Project 30 is the creation of the Administrative Procedure
   Control Agency, the government’s first permanent centralized unit designed to review
   the flow of new regulations and manage the national database. This agency is to lay
   the foundation for a regulatory system in Vietnam that will provide quality control for
   the administrative procedures, build capacity for formulating better regulations, and
   sustain reform results.

   Finally, Project 30 supported the establishment of the Advisory Council for
   Administrative Procedure Reform, whose 15 members are appointed by the Prime
   Minister and come from foreign and domestic business associations. This advisory
   council is to guide, participate in, and promote administrative simplification. The
   council was established in an effort to shift to a client-oriented, service-driven
   administration—the first such institutional mechanism for private sector participation
   in the regulatory system in Vietnam.

2. Conducting Regulatory Impact Assessments. Complementary to Project 30, the
   use of regulatory impact assessments is designed to strengthen the regulatory
   system in order to reduce the costs of doing business in Vietnam. The regulatory
   impact assessment is a tool that aims to improve the quality of business regulations
   by formally assessing the costs and benefits of regulations. With support provided
   by the program, Vietnam became the first Association of Southeast Asian Nations
   country to use such assessments.

   Under the program, the use of regulatory impact assessments has become a
   legislative requirement. As of January 1, 2009, all laws, ordinances, and decrees
   were required to have such assessments conducted to improve the quality of laws
   and policies in Vietnam. These assessments, which entail economic policy analysis
   and public consultation, help create more efficient and effective regulations with
   higher compliance rates, fewer burdens on citizens and businesses, and better use
   of limited government resources. For instance, one regulatory impact assessment
   led to the removal of one law’s burdensome residency requirement for citizens.
   Overall, this new economic governance tool has made elected representatives in the
   National Assembly more discerning in drafting and approving regulations, which
   should improve the regulatory climate in Vietnam.

   The most important contribution of regulatory impact assessments to the reform
   process of Vietnam is the assurance of transparency and consultation with


                                                                                         2
   stakeholders in the law-making process. Until recently, Vietnam had no systematic
   approach to consultation or to ensuring that state agencies respond to the
   information collected in such consultations. Regulatory impact assessments require
   consultation with stakeholders to ensure transparency in the law-making process.

3. Building Capacity for Developing and Financing Infrastructure. The lack of
   financing for adequate infrastructure in Vietnam is a major competitive disadvantage
   for enterprises and the country as a whole. To address this deficiency, the program
   has been working with the Ministry of Planning and Investment (MPI) in developing
   new rules and concepts for public-private partnerships (PPPs) to create a new
   market for private sector infrastructure services and investment. Specifically, the
   program and MPI have been developing the legal framework for PPP investments in
   Vietnam’s infrastructure—in utilities, airports, ports, roads, urban transport, and
   industrial parks.

   On November 9, 2010, the Prime Minister approved the implementation of a legal
   framework for pilot PPP investments. Under this new framework, the program
   proposed two new entities: the Infrastructure Development Facility, to develop
   projects that accord with Vietnam’s strategic priorities and meet international investor
   financing requirements, and an Infrastructure Financing Fund to finance projects
   through debt and equity markets with funding sources from private investors and
   donors. At the time of the audit, discussions were under way regarding the
   implementation of the proposed entities.

   The benefits of this proposed market-based approach include greater transparency
   and improved governance in the procurement of infrastructure, higher rates of capital
   mobilization from debt and equity markets, lower transaction costs and higher
   efficiency for business operations for all enterprises, and greater efficiency in service
   delivery across Vietnam.

4. Developing the Provincial Competitiveness Index (PCI). The program and the
   Vietnam Chamber of Commerce and Industry (VCCI) use the PCI to assess and rate
   provinces by the quality of their economic governance for private sector
   development. The PCI rates the performance, capacity, and willingness of provincial
   governments to develop business-friendly regulatory environments for private sector
   development. Further, the index helps explain why some parts of the country
   perform better than others in job creation and economic growth. The PCI is
   Vietnam’s first index measuring the economic governance capacity of all 63
   provincial authorities, representing the voice of the private sector about the provincial
   business and regulatory environment. Provincial and national leaders consider this
   index a useful tool to monitor the progress of their reforms and to inspire provincial
   governments to improve their economic governance and competitiveness. Recently,
   the program launched an annual report that represents about 10,000 business
   leaders and provides support for key reform initiatives such as Project 30, public
   administration reform, and decentralization. Survey results in the latest annual report
   show that Vietnam continues to make progress in administrative reform. (See
   Appendix III for a map of competitiveness ratings by province.)

Despite these accomplishments, the audit identified the following issues that need to be
addressed:



                                                                                          3
•   The program lacked approval as required by Government of Vietnam regulations
    (page 5).
•   The program’s monitoring and evaluation (M&E) plan was not in compliance with the
    task order (page 6).
•   The contractor’s program performance reporting needed improvement (page 8).

The report recommends that USAID/Vietnam:

1. Develop and implement a clear plan of action to expedite the program approval
   process of the VNCI-II program as required by Vietnamese regulations (page 6).

2. Work with the contractor to finalize and approve an M&E plan that includes expected
   results with illustrative indicators, midterm milestones and benchmarks, and end-of-
   project results, along with clear definitions, data sources, and collection
   methodologies for each indicator (page 7).

3. Revise its performance management plan to be consistent with the approved M&E
   plan (page 7).

4. Amend the VNCI-II task order contract to require the contractor to submit periodic
   progress reports that clearly convey key activities completed, compare achievements
   with targets for program indicators, and discuss implementation problems and
   options for resolving them (page 8).

Detailed findings follow. Our evaluation of management comments appears on page 9.
Appendix I describes the audit’s scope and methodology. The mission’s written
comments on the draft report are included as Appendix II.




                                                                                     4
AUDIT FINDINGS
Program Lacked Approval as
Required by Government of
Vietnam Regulations
On November 9, 2006, the Government of Vietnam issued a regulation on the
“Management and Utilization of Official Development Assistance,” known as Decree
131. Article 7, Section 2 sets forth procedures for developing and approving a list that
prioritizes programs and projects, with attachments containing specified information for
each listed program and project. The Ministry of Planning and Investment takes the lead
role in selecting programs and projects, in coordination with relevant agencies and
donors, and is responsible for submitting the list to the Prime Minister for approval.

USAID/Vietnam and the contractor acknowledged the decree. In response to a letter
from an MPI official in September 2009, USAID/Vietnam agreed that it would consult
with counterparts in developing such program documents. The contractor’s Year 1 work
plan reflected that the programs implemented with the above-mentioned counterparts
required formal government approval. In addition, the contractor noted in its Year 1
progress reports that the government had requested such approval procedures to be
carried out because the program was dealing with the most sensitive programs of the
Office of Government, which was continually questioning the program’s legality.

However, 3 years into implementation, the program had not yet been approved by the
government. This delay resulted from the lengthy process of identifying appropriate
counterparts for program activities and preparing program documents for the
counterparts. Complicating the process, USAID and the contractor lacked clarity
regarding their roles—e.g., who should take the lead in obtaining program approvals
from the government—because the program’s contract does not specifically address this
issue.

According to the mission, the program was conceived as one master program that would
work with one counterpart for easier coordination and management purposes. However,
the program has an array of activities that involve multiple counterparts. Therefore,
USAID and its contractor must submit separate documents to the MPI for review and
approval by the Prime Minister. The mission did not anticipate these changes in the
second phase of the program, which resulted in USAID and its contractor working with
multiple counterparts to prepare separate program documents for each.

Since the inception of the program, the contractor has been in consultation with MPI to
obtain guidance on the preparation of the required program documents. In March 2009,
MPI notified the contractor that the Office of Government would prefer four separate
program approvals (one each for the Office of Government, the Ministry of Justice, MPI,
and VCCI). As of April 2010, contractor officials had submitted the final drafts of
program documents to MPI and were waiting for final approval. However, because of
further changes in the government approval process, approval by the Prime Minister has
been delayed further.




                                                                                      5
Although there has been no negative impact to date as a result of the delay in
government approval, future program activities could be delayed. In fact, the delay has
set back by 3 months implementation of another mission-funded program, 2 potentially
preventing that program from accomplishing all its objectives by the end of its
implementation period. In addition, if that program needs to be extended because of
these program implementation delays, the mission believes that the extension could
have cost implications. Therefore, this audit makes the following recommendation.

      Recommendation 1.          We recommend that USAID/Vietnam develop and
      implement a clear plan of action to expedite the approval process of the Vietnam
      Competitiveness Initiative Phase II with the Government of Vietnam.

Monitoring and Evaluation Plan Was
Not in Compliance With the Task Order
USAID/Vietnam’s VNCI-II task order required the contractor to develop and execute an
M&E plan in consultation with the contracting officer’s technical representative (COTR).
Furthermore, the task order required the M&E plan to include expected results with
illustrative indicators, midterm milestones or benchmarks, and end-of-project planned
results, along with data sources and collection methodologies for each indicator.

However, the M&E plan that the contractor submitted in November 2008—the COTR did
not know at the time of the audit whether the submitted plan had been approved by
USAID—did not comply with the task order. The document submitted was a seven-page
table listing the program’s activities in three columns under the headings of activity,
output, and outcome. The table included no illustrative indicators, midterm milestones or
benchmarks, or end-of-project planned results, nor did the table note data sources and
collection methodologies. Moreover, the plan did not include the seven performance
indicators that the contractor is required to report to the mission. As a result, data
validation was problematic.

Lacking the elements specified above, the M&E plan had unclear performance indicators
and lacked clear data collection methodologies. The contractor reported the same data
for Performance Indicators 1 and 3 for Year 1, even though the indicators appeared to
report on different activities. Performance Indicator 1 was to track the Number of
executive branch personnel trained with U.S. Government assistance, while
Performance Indicator 3 was to track the Number of individuals who received U.S.
Government-assisted training, including management skills and fiscal management, to
strengthen local government and/or decentralization. The contractor considered both
indicators to have the same measure—the number of government and private sector
participants. However, according to the COTR, Performance Indicator 1 pertained to
participants from the host government’s executive branch (ministerial and local
government personnel), while Performance Indicator 3 pertained to all participants
(government and private sector). This confusion occurred because the M&E plan lacked
clear definitions of the performance indicators to guide the contractor in data collection
and reporting.



2
    This other program operates in the area of rule of law and human rights.


                                                                                         6
Another example of an unclear performance indicator is illustrated by Performance
Indicator 4 for Year 2, which was to measure the Number of PCI related reform
initiatives, but instead included various data, such as the numbers of workshops
conducted and reports prepared. For this indicator, 24 Provincial Competitiveness Index
reform “initiatives” were reported as having been completed; however, the audit found
that 14 of these were just diagnostic workshops conducted by various provincial
governments to address the results of a PCI survey; 7 were reports or plans prepared by
various provincial governments to address survey results; and 3 others were
miscellaneous items, such as a survey among ministries (to be conducted by another
donor) and a United Nations Development Programme report. According to the COTR,
all these activities were triggered by the PCI initiatives of the program, but the M&E plan
did not clearly define “PCI-related reform initiatives,” which could cause confusion as to
what should be counted.

In addition, the contractor’s lack of a clear data collection methodology led to
inconsistent data collection. For example, data reported by the mission under
Performance Indicators 1 and 3 included 435 participants for the training conducted for
members of the ministerial and provincial task forces on Project 30. The contractor
disclosed that for these data it had sometimes used estimated figures arrived at by
assuming an average of 5 participants for each of the 87 task forces. However, there
was no clear basis for using an estimate instead of the actual number. Some indicators
used actual numbers while others used estimates, resulting in inconsistent data
collection.

The contractor did not develop an M&E plan in conformance with task order
requirements because the contractor believed that the mission had higher priorities,
such as determining the program’s specific performance indicators, preparing annual
work plans, and compiling results to be reported in the mission’s annual performance
plan and report. According to the mission, an approved plan was not an issue because
the mission had a performance management plan for tracking progress against
performance indicators, which were then reported in the annual report and in semiannual
portfolio reviews. However, the performance management plan also lacked clear
definitions of performance indicators. An updated M&E plan was submitted to the
mission on November 24, 2010, and was being reviewed at the time of the audit.

To measure performance effectively and make informed management decisions,
missions must ensure that quality data are collected and reported. Without properly
prepared and approved plans, the mission’s ability to monitor and evaluate the program
effectively and to hold the contractor accountable for achieving planned activities on
schedule was impaired. Therefore, this audit makes the following recommendations.

   Recommendation 2. We recommend that USAID/Vietnam work with the
   contractor to finalize and approve a monitoring and evaluation plan that includes
   expected results with illustrative indicators, midterm milestones or benchmarks,
   and end-of-project results, as well as clear definitions, data sources, and
   collection methodologies for each indicator.

   Recommendation 3.     We recommend that USAID/Vietnam revise its
   performance management plan to be consistent with the approved monitoring
   and evaluation plan.



                                                                                         7
Program Performance Reporting
Needed Improvement
To help ensure that projects deliver their planned outputs and meet their overall
objectives, missions are expected to follow the performance management steps outlined
in Automated Directives System 203.3.2. The four principal steps in performance
management are (1) establishing a performance management framework that identifies
intended results, with concurrent planning to monitor and evaluate progress toward
those results, (2) collecting and analyzing performance information to track progress
toward planned results, (3) using performance information to influence program decision
making and resource allocation, and (4) communicating results achieved, or not
achieved, to advance organizational learning and tell USAID’s story.

The contractor submitted monthly reports as required by the task order contract with the
mission, but these progress reports did not convey a complete picture of the progress
made toward achieving planned results. The monthly reports were only several pages
long, generally contained brief descriptions of current activities, and did not track
progress against targets. In addition, the contractor submitted quarterly reports,
although the task order contract does not require them. However, the quarterly reports
did not compare accomplishments with established annual performance indicator
targets; the reports merely listed completed and upcoming activities. This lack of
monthly or quarterly tracking of results occurred because the contract does not require
tracking by month or quarter.

As a result of the contractor’s limited progress reporting, the mission and the contractor
did not have all the information needed to monitor effectively and assess whether the
contractor was achieving planned results of the performance indicators on schedule.
Further, the absence of at least quarterly monitoring of the program’s accomplishments
against performance indicator targets deprived the mission of critical information needed
to determine whether the program was achieving planned outputs, and could lead
decision makers to erroneous conclusions regarding program results. In addition, the
mission’s ability to identify potential implementation problems, initiate corrective actions
early, and make informed decisions for the program was reduced. Therefore, this audit
makes the following recommendation.

   Recommendation 4. We recommend that USAID/Vietnam amend the Vietnam
   Competitiveness Initiative Phase II task order contract to require the contractor to
   submit periodic progress reports that clearly convey key activities/initiatives
   accomplished, achievements versus targets of program indicators, and
   outstanding issues and implementation problems and options for resolving them.




                                                                                          8
EVALUATION OF
MANAGEMENT COMMENTS
The Office of the Inspector General reviewed the mission’s response to the draft report
and determined that management decisions have been reached on the first three
recommendations and that final action has been achieved on the fourth.

The status of each of the four recommendations is discussed below.

In its response to Recommendation 1, the mission stated that after several iterations, it
had received the final program documents on April 15, 2011, from three of its four
counterparts. The mission has been working with MPI on the approval process, and the
documents are ready for submission to the Prime Minister for approval. Regarding the
document from the fourth counterpart, the Ministry of Justice is currently reviewing the
latest version and plans to submit it to MPI in May 2011. When it receives all four
documents, MPI will request project approval from the Prime Minister. Implementation
of the proposed actions is expected to be completed by June 30, 2011. Therefore, a
management decision has been reached on this recommendation.

In its response to Recommendation 2, the mission expressed concern about the wording
of two sentences in the finding. Therefore, we slightly revised the wording to address
those concerns. The mission agreed with the recommendation and is working with the
contractor in revising the M&E plan to reflect the requirements in the task order.
Implementation of the proposed actions is expected to be completed by May 30, 2011.
Therefore, a management decision has been reached on this recommendation.

In its response to Recommendation 3, the mission stated that it is updating the
performance management plan and expects to complete the update by May 30, 2011.
Therefore, a management decision has been reached on this recommendation.

In its response to Recommendation 4, the mission disagreed with the recommendation
because it believed that the contractor’s reporting under the program was sufficient to
enable adequate monitoring of the program. We considered the mission’s reasoning
and believe that by implementing Recommendations 2 and 3 of this report along with the
mission’s current reporting regimen, which includes twice-yearly reviews of data for the
indicators, the mission has adequately addressed our concerns regarding the reporting
of program performance. Therefore, we determined that final action has been taken on
this recommendation.




                                                                                       9
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the
evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether VNCI-II is achieving its main goals
of strengthening the regulatory system, supporting the development and financing of
infrastructure, and increasing understanding of key issues related to competitiveness on
the part of the government and the private sector.

To implement the program, USAID/Vietnam awarded a 4½-year, $12.4 million contract
to the DAI/Nathan Group 3 covering the period from October 1, 2008, through February
28, 2013. As of September 30, 2010, $7.8 million had been obligated and $4.9 million
had been spent for VNCI-II activities. Audit fieldwork was performed from November 15
to December 8, 2010, in Hanoi, Vietnam, as well as in multiple locations in Nihn Thuan
and Da Nang Provinces. The audit covered activities from the inception of the program
on October 1, 2008, until September 30, 2010.

In planning and performing the audit, the audit team assessed relevant controls used by
the mission to manage the program and ensure that the contractor was providing
adequate oversight of program activities. These controls included maintaining regular
contact with the contractor, as well as obtaining and reviewing monthly and quarterly
progress reports, which provided a narrative overview on the status of activities in each
of the regions covered under the program, including any significant issues or new
developments. Additionally, the auditors examined the mission’s fiscal year 2009 annual
self-assessment of management controls, which the mission is required to perform to
comply with the Federal Managers’ Financial Integrity Act of 1982, 4 to check whether the
assessment cited any relevant weaknesses.

Methodology

To determine whether the program was achieving its main goals, we met with personnel
from USAID/Vietnam, the contractor, and various government officials from the national
and provincial levels participating in the activities under the program. We reviewed
relevant program and management control documents produced by the mission, such as
the performance management plan and operational plan, and results-reporting
documentation such as the annual portfolio review documents. We also reviewed
documents prepared by the contractor, such as annual work plans and progress reports.



3
    A joint venture between Development Alternatives, Inc., and Nathan Associates Inc.
4
    Public Law 97-255, as codified in 31 U.S.C. 3512.


                                                                                                10
                                                                               Appendix I


To assess whether planned results were achieved, we focused on seven key
performance indicators included in the mission’s performance management plan. We
conducted interviews with mission and contractor staff regarding processes for
collecting, verifying, and reporting performance results.

We validated reported program performance results for fiscal years 2009 and 2010 by
tracing mission-reported results such as the annual portfolio review data back to the
records maintained at the contractor’s office in order to support the results claimed. In
addition, we conducted two site visits to observe program-related activities being carried
out at the provincial and district levels.




                                                                                       11
                                                                               Appendix II



MANAGEMENT COMMENTS


                                                                              May 6, 2011
MEMORANDUM


TO:                   Regional Inspector General/Manila, Bruce N. Boyer
FROM:                 Mission Director, Francis A. Donovan, /s/
SUBJECT:              Mission Response to the Audit of USAID/Vietnam’s
                      Competitiveness Initiative Phase II (VNCI-II) Program
                      (Audit Report No. 5-440-11-0XX-P)



Thank you for the opportunity to respond to the draft audit report regarding
USAID/Vietnam’s Competitiveness Initiative Phase II (VNCI-II) Program, Audit Report
No. 5-440-11-0XX-P.

The stated objective of this audit was to determine whether USAID/VNCI-II is making
progress in achieving its main goals of strengthening the regulatory system, supporting
the development and financing of infrastructure, and increasing the government and
private sector’s understanding of key issues of competitiveness. The overall conclusion
was that the program is making progress in achieving its main goals. However, there are
still some issues that need to be addressed. USAID/Vietnam responses are below and
include corrective actions taken.

Recommendation 1: We recommend that USAID/Vietnam develop and implement a
clear plan of action to expedite the approval process of the Vietnam
Competitiveness Initiative Phase II program with the Government of Vietnam.

Management Response: We agree with the recommendation to expedite the approval
process. On April 15, 2011, after several iterations of project documents, the Ministry of
Planning and Investment (MPI) confirmed that they have received the final project
documents from the Office of Government of Vietnam, Ministry of Planning and
Investment and the Vietnam Chamber of Commerce and Industry. Those documents are
ready for submission by MPI to the Prime Minister for approval, and USAID is working
with MPI on the approval process.

The Mission Director met with Mr. Nguyen Xuan Tien, Deputy Director of the Foreign
Economic Relations Department (FERD) of the Ministry of Planning and Investment
(MPI), on March 30, 2011 and with Mr. Ho Quang Minh, Director of FERD at MPI, on
April 15, 2011. In these meetings with the officials from MPI/FERD, the coordinating



                                                                                       12
                                                                              Appendix II


body for ODA project approval, the Mission Director raised the VNCI approval issue to
their attention and asked for ways to expedite the approval process. In the March 30th
meeting, MFI/FERD advised that the department already received the proposal from
Office of Government (OOG) for the Administrative Procedures Reform, and was waiting
for three proposals from the Ministry of Justice (for the Regulatory Impact Assessment
(RIA) component), Vietnam Chamber of Commerce and Industry (VCCI) (for the
Provincial Competitive Index component) and MPI (for the infrastructure component). At
the second meeting on April 15, the MPI/FERD official informed USAID that the only
pending proposal was from the Ministry of Justice (MOJ) for the RIA component.
Currently, the MOJ is reviewing the latest project document and stated that if they do not
have any further issues, they will submit it to MPI in May 2011. MPI noted that when all
four proposals are received, MPI will make a request to the Prime Minister for project
approval. We anticipate project approval by June 30, 2011.

Recommendation 2: We recommend that USAID/Vietnam work with the contractor
to finalize and approve a monitoring and evaluation plan that includes expected
results with illustrative indicators, midterm milestones/benchmarks, end-of-
project results, clear definitions, data sources, and collection methodologies for
each indicator.

Management Response: The Mission disagrees with the statement on Page 6 that
“neither the mission nor the contractor conducted periodic reviews to monitor the
progress of work”. USAID Economic Growth Office staff monitor the progress of work by
the VNCI Project through regular meetings/telephone calls with the contractor to discuss
implementing issues; weekly updates from the contractor to EG staff to elaborate on the
work done during the week and planned work for the following period; monthly reports to
summarize what has been achieved during the month; and quarterly reports where
implementing progress is reported against the work plan and descriptions of each event
is provided with number of participants. Attached are examples of the weekly, monthly
and quarterly reports we receive from the project and discussed with the Auditor Team
during their visit.

Regarding the Custom Indicator 4: “Number of PCI related reform initiatives”, this
measures the number of diagnostic workshops, provincial development plans, and
surveys derived from utilizing the PCI methodology; an example of a survey derived from
using the PCI methodology is the Public Administration Performance Index (PAPI) from
UNDP that measures citizens’ viewpoints at the provincial level. There is no confusion
by USAID and VNCI on what to measure when calculating this custom indicator.
Attached are spreadsheets containing the PCI related reform initiatives for 2009 and
2010.

We agree with the recommendation that the M&E Plan should be revised to the Task
Order’s requirements. USAID is working with the Contractor to do this. USAID/Vietnam
understands the importance of the indicators, targets and results besides the program
outcomes and impacts. It is worth noting that improvement has been made on indicator
reporting for year 2 compared to year 1. We anticipate completion of this
recommendation by May 30, 2011.

Recommendation 3: We recommend that USAID/Vietnam revise its performance
management plan to be consistent with the approved monitoring and evaluation
plan.


                                                                                       13
                                                                                Appendix II



Management Response: We agree with this recommendation, and USAID/Vietnam is
currently updating the PMP for the VNCI program. Actions should be completed by May
30, 2011.

Recommendation 4: We recommend that USAID/Vietnam amend the Vietnam
Competitiveness Initiative Phase II task order contract to include the requirement
for the submission by the contractor of periodic progress reports that will clearly
convey key activities/initiatives accomplished, achievements versus targets of
program indicators, and outstanding issues and implementation problems and
options for resolving these issues and problems.

Management Response: We do not agree with this recommendation.

On page 8 under the Program Performance Reporting Needs Improvement section,
paragraph 3 – it states, “Owing to the contractor’s limited progress reporting, the mission
and the contractor did not have all the information needed to effectively monitor and
assess whether the contractor was timely achieving planned results of the performance
indicators.”

As discussed with the Audit Team during their visit, the contractor provides the EG
Office with valuable progress reports and is currently exceeding the reporting
requirements of the contract. The contract states, “The Contractor shall, on a monthly
basis (unless the frequency is later modified), provide USAID with brief progress reports
(one to two pages executive summaries at most, with any elaboration as a removable
attachment) highlighting key project initiatives/activities, upcoming events and
international missions. Concurrently, the Chief of Party (or designee) shall note other
critical issues/factors which may hinder achievement of work plan objectives, contract
benchmarks, or budget goals for the balance of the year. In addition, the Contractor shall
report success stories that describe in concrete terms the achievements/benefits of a
particular activity.”

Currently, the project contractor sends us weekly and monthly reports that contain all
information on the activities as required by the contract. In addition, the project sends us
detailed quarterly reports to assist the EG Office in monitoring the results of the project
against its stated goals. The planned indicator outputs are one component when
evaluating the project’s results. To monitor planned versus actual indicator outputs, we
receive actual data on indicators twice a year from the contractor – during portfolio
reviews (spring) and for the Performance Plan Report (fall). Based on the indicator data
received at this time, the reports (weekly, monthly and quarterly) received from the
contractor, site visits, and frequent meetings with the contractor and GVN counterparts,
the Mission feels oversight of the project and information received from all sources is
adequate to properly monitor the project’s achievements. We have attached examples of
the weekly, monthly and quarterly reports we receive from the contractor




                                                                                         14
                                                                            Appendix III


Provincial Competitiveness Ratings, 2009




Source: The Provincial Competitiveness Index 2009 developed by the program and
VCCI. This map shows the ratings of the different provinces in terms of job creation and
economic growth.




                                                                                 15
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
